Supreme Court, U.S.
FILED

WAIVER

AUG 06 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme-Court-Casi2No 19-135

Pamela J. Smith

University of Maryland, Baltimore, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.

D

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.

F I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

krttdV

Date. 08/06/2019
(Type or print) Name

Lillian L Reynolds
0 Mr.

Ms. 0 Mrs. 0 Miss

Maryland Office of the Attorney General
Address 200 St. Paul Place, 17th Floor
City & state Baltimore, Maryland
Zip 21202
Email Ireynolds@oag.state.md.us
Phone 410-576-6481

Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Morris E. Fischer, Esq., 8720 Georgia Avenue, Suite 210, Silver Spring, MD 20910

BRIAN E. FROSH
Attorney General

KATHERINE D. BAINBRIDGE

ELIZABETH F. HARRIS
Chief Deputy Attorney General

CHRISTOPHER B. LORD

Division Chief

CAROLYN QUATTROCKI
Deputy Attorney General

Division Deputy Chief

STATE OF MARYLAND
OFFICE OF THE ATTORNEY GENERAL
EDUCATIONAL AFFAIRS DIVISION

410-576-6437

WRITER'S DIRECT DIAL

No.

410.:576-6481
E-Mail: lreynolds@oag.state.md.us

August 6, 2019

Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Pamela J. Smith v. University of Maryland, Baltimore, et al.
Case No. 19-135
Dear Mr. Harris:
Enclosed for filing please find Respondents' Waiver to file a Response to the Petition for Writ of
Certiorari in the above referenced matter.
Thank you for your assistance in this matter.

Sincerely yours,

Lillian L. Renolds
Assistant Attorney General
Enclosure
cc:

Morris E. Fischer, Esq.

200 Saint Paul Place, lr Floor, Baltimore, Maryland 21202-2021
(410) 576-6450 + Telephone for Deaf (410) 576-6372 ❖ Facsimile (410) 576-6437
www.m ary I an dattorn eygen e ral. goy

